CERTIFICATE OF SERVICE
No. 19-1302
David Shinn, Director, Arizona Department of Corrections,
Petitioner,
v.
George Russell Kayer,
Respondent.
I, Jean-Claude André, do hereby certify that, on this third day of June, 2020,
I caused an electronic copy of the letter requesting an extension of time within
which to file a response in the foregoing case to be served by email, on the following:
ORAMEL H. (O.H.) SKINNER
Solicitor General
LACEY STOVER GARD
Counsel of Record
Office of the Arizona Attorney General
400 West Congress Street
Bldg. S-215
Tucson, AZ 85701
(520) 628-6654
lacey.gard@azag.gov
Counsel for Petitioner
/s/ Jean-Claude André
JEAN-CLAUDE ANDRÉ
SIDLEY AUSTIN LLP
555 West Fifth Street
Los Angeles, CA 90013
(213) 896 6000

